No. 19A1038
IN THE

Supreme Court of the United States
_________
IDAHO DEPARTMENT OF CORRECTION, HENRY ATENCIO, in his official capacity as
DIRECTOR; JEFF ZMUDA, in his official capacity as DEPUTY DIRECTOR; AL RAMIREZ in
his official capacity as WARDEN; and SCOTT ELIASON, M.D.,
Applicants,
v.
ADREE EDMO AKA MASON EDMO,
Respondent.
CERTIFICATE OF SERVICE
I, Lori Rifkin, hereby certify that I am a member of the Bar of this Court, and
that I have this 18th day of May 2020, caused a paper copy of the Respondent’s
Opposition to Application for Stay Pending Disposition of Petition for Writ of
Certiorari to be delivered to the Court via overnight mail and an electronic version
of the document to be transmitted via the Court’s electronic filing system to:
BRADY JAMES HALL
MOORE ELIA KRAFT & HALL, LLP
702 West Idaho Street, Suite 800
Boise, ID 83702
(208) 336-6900
brady@melawfirm.net
Counsel for The Idaho Department of
Correction, et al.

/s/ Lori Rifkin
Lori Rifkin

